AiSfteftdix 1
United States Court of Appeals
for The Fifth Circuit

CASE No. 20-10914

SUMMARY ORDER

FEBRUARY 5, 2021

B

Case: 20-10914

Document; 00515734471

Page: 1

Date Filed: 02/05/2021

®nttrb States Court of Appeals
for tfic Jftftlj Circuit

United States Court of Appeals
Fifth Circuit

FILED
No. 20-10914
Summary Calendar

February 5, 2021
Lyle W. Cayce
Clerk

Robert Paul Magtulis Cledera,
Plaintiff—Appellant,
versus
United States; Robert M, Wilkinson, ActingUS. Attorney
General) James McHenry, Executive Officefor Immigration Review)
Kevin fC. McAleenan, Acting Secretary, U.S. DepartmentofHomeland
Security) Steven McCraw, Texas DepartmentpfPtMitS0ty) Gary
C. Thomas, Dallas Area Rapid Transit) U. Renee Hall, Dallas Police
P^artmmt,PSds, Texas) Dominique Artis, DallasFireDepartment,
Dallas, Texas) Steve Dye, GrandPrairie Police Department, Grand
Prairie, Texas) Robert Fite, Grand Prairie Fire Department, Grand
Prairie, Texas) Will Johnson, Arlington Police Department, Arlington,
Texas) Tracy Aaron, Mansfield Police Department, Mansfield, Texas)
Brian Manley , Austin Police Department, Austin, Texas) Charles
Edge, Ellis County Sheriff) Ryan Holt, Waco Police Department, Waco,
Texas) Gregory Fellows, Menifee Police Department, Menifee,
California) HomePro Operating, L.L.C.; Apple,
Incorporated; The Walt Disney Company; Best Buy
Company, Incorporated; Target Corporation; Walmart,
Incorporated; Home Depot Product Authority, L.L.C.;
RING (Amazon.com, Incorporated); ARLO (Arlo
Technologies, Incorporated); LG Electronics, USA
Incorporated; Verizon Communications, Incorporated;
City of Grand Prairie; City of Mansfield; Menifee
Police Department,
Defendants—Appellees.

AU t MEN IHTAI Et>
U S. GOVEPNMFM t
IN'FORMAMON S

GPO

Case: 20-10914

Document: 00515734471

Page: 2

Date Filed: 02/05/2021

No. 20-10914

Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CV-1997

Before Jolly, Elrod, and Graves, Circuit Judges.
Per Curiam:*
Robert Paul Magtulis Cledera filed a complaint pro se against thirty
parties, including the United States, federal officials, state officials,
municipalities, and corporations. Cledera alleged violations of the Texas
Penal Code and other constitutional and statutory provisions. Multiple
defendants moved to dismiss Cledera’s claims; The district Court granted
those motions and dismissed all of Cledera’s claims. Cledera now appeals
the district court’s dismissal of his claims. Because the district court
correctly held that Cledera fails to state a claim on which relief can be
granted, we AFFIRM.
I.
In 2019, Cledera filed a criminal complaint against thirty parties,
including the United States, federal officials, state officials, municipalities,
and many corporations. Cledera subsequently amended his complaint. In his
amended complaint, Cledera alleged that he was being harassed, tortured,
and stalked by agents acting on behalf of the federal government. In support
of his claim of vast conspiracy between multiple levels of government
facilitated by private corporations, Cledera points to a variety of instances.
He says that unknown actors watched him from the moment he left his home
to when he returned. He says that unmarked vans appeared when he exited

■ Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

2

Case: 20-10914

Document: 00515734471

Page: 3

Date Filed: 02/05/2021

No. 20-10914

his driveway. He says that aircrafts would linger overhead when he stepped
out of his home, and that the engine noises were enhanced to annoy and
harass him. Cledera states that he knows “ for a fact that [his] Phones [have]
been cloned and wire tapped,” because the phone creates messages on its
own and the videos he records with the phone are blurry.
In his complaint, Cledera specifically asserts violations of the Fourth,
Fifth, Sixth, and Fourteenth Amendments. He also argues that he has
suffered violations of 28 U.S.C. § 1983, Texas Penal Code § 15.02 (criminal
conspiracy), the Privacy Act of 1974, and Title VII of the Civil Rights Act of
1964.
Multiple defendants filed motions to dismiss on various bases,
including pursuant to Federal Rule of Civil Procedure 12(b)(6) (failure to
state a claim), Federal Rule of Civil Procedure 12(b)(5)(insufficient service
of process), and Federal Rule of Civil Procedure 12(b)(1) (lack of subject
matter jurisdiction). Some defendants also filed motions to dismiss the case
as frivolous, while another defendant filed a motion for judgment on the
pleadings.
The defendants argued that Cledera did not raise a specific legal cause
of action, nor identify any legal duties allegedly violated, making it impossible
to ascertain what cause of action was being asserted.
The magistrate judge issued a recommendation that the district court
grant all pending motions to dismiss. The district court adopted the
recommendation in full, dismissing Cledera’s lawsuit. Cledera now appeals,
seeking to have the district court’s dismissal of his claims reversed and his
Case remanded to the district court.

3

Case: 20-10914

Document: 00515734471

Page: 4

Date Filed: 02/05/2021

No. 20-10914

II.
We review dismissals under Federal Rule of Civil Procedure 12(b) (6)
denovo. Walker v. Beaumont Indep. Sch. Dist., 938 F.3d 724, 734 (5th Cir.
2019). Federal Rule of Civil Procedure 8(a)(2) requires that a plaintiff’s
pleading contain “ a short and plain statement of the claim showing that the
pleader is entitled to relief ” Fed. R. Civ. P. 8(a)(2). That is, the “complaint
must contain sufficient factual matter, accepted as true, to ‘state a claim to
relief that is plausible on its face. ’ ” Ashcroft v. Iqbal, 556 U.S. 662,678 (2009)
(quoting Bell Atl Corp. an Twombly, 550 U.S. 544, 570 (2007)). A claim is
facially plausible if the plaintiff alleges facts that, accepted as true, allow a
court “to draw the reasonable inference that the defendant is liable for the
misconduct alleged. ” Id, While the court must accept the facts in the
complaint as true, it will “not accept as true conclusory allegations,
unwarranted factual inferences, or legal conclusions. ” Gentilello v. Rege, 627
F.3d 540, 544 (5th Cir. 2010) (quoting PlbtkmanTPAxessJnCi, 407 F.3d 690*
696 (5th Cir. 2005)). A district court’s authority to dismiss a claim extends
to dismissal of claims that are “clearly baseless.” Neitzke v. Williams, 490
U.S. 319,327 (1989); see also Twombly, 550 U.S. at 570. This includes “claims
describing fantastic or delusional scenarios.” Neitzke, 490 U.S. at 328.
We “must construe the pleadings of pro se litigants liberally” to
prevent the loss of rights due to inartful expression. Andrade v. Gonzales, 459
F.3d 538, 543 (5th Cir. 2006). We are, however, not at liberty to create a
cause of action where there is none. Hughes v. Rowe, 449 U.S. 5,9-10 (1980).
Ordinarily, a pro se litigant should be offered an opportunity to amend his
complaint before it is dismissed. See Mendoza-Tarango v. Flores, 982 F.3d
395, 402 (5th Cir. 2020). However, leave to amend is not required when an
amendment would be futile. Marucci Sports, L.L.C. v. Nat3l Collegiate
Athletics Ass 3n, 751 F.3d 368, 378 (5th Cir. 2014).

Case: 20-10914

Document: 00515734471

Page: 5

Date Filed: 02/05/2021

No. 20-10914

Here, Cledera has asserted claims that are clearly baseless. He fails to
address how the defendants have conspired to harass, stalk, or torture him.
He fails to show how any of his allegations, such as the unmarked Vehicles
and aircrafts following him, implicate the named defendants. Simply put,
Cledera fails to state a plausible claim on which relief can be granted. His
claims do not contain sufficient factual matter giving rise to the inference that
the defendants are liable for the alleged misconduct. For these reasons, we
AFFIRM.
III.
The judgment of the district court is AFFIRMED

5

Appendix C
United States District Court
For The Northern District of Texas
Dallas Division

CASE No. 3: 1^-^gv-D 199T-M-J3N

CLERK’S ENTRY OF DEFAULT

AUGUST 7,2020

c

:

i*~S
Case 3:19-cv-01997-M-BN Document 121 Filed 08/07/20

Page 1 of 1 PagelD 1772

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
Dallas Division

Robert Paul Magtulis Cledera
Plaintiff
y;

United States et al
Defendant

§
§
§
§
§
§
§
§
§
§
§

Civil Action No. 3:19-cv-01997-M-RN

CLERK’S ENTRY OF DEFAULT
The record reflects that service of the complaint has been made upon the: Defendant
named below:
RING (Amazon.com Inc)

It appears from the record that service of the complaint has been made,, that the Defendant
has failed to answer or otherwise defend as directed within the time allowed, and that the Plaintiff
has shown that failure through affidavit or otherwise.
Therefore, upon Plaintiffs request, DEFAULT is entered against the Defendant
named above.

KAREN S. MITCHELL, CLERK
U.S. DISTRICT COURT
s/N. Tavlor
By: Deputy Clerk on 8/7/2020

Appendix D
United States District Court
For The Northern District of Texas
Dallas Division

CASE No. 3:19-cv-01997-M-BN

JUDGEMENT

AUGUST 7, 2020

D

Case 3.19-CV-01997-M-BN Document 123

Filed 08/07/20

Page 1 of 1 PagelD 1774

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ROBERT PAUL MAGTULIS CLEDERA. §
Plaintiff,
V.
UNITED STATES, ET AL.,
Defendants,

§
§
§
§
§
§
§
§

No. 3.-19-CV-1997-M

JUDGMENT
This action came on for consideration by the Court, and the

issues having been

duly considered and a .decision duly rendered it is ORDERED, ADJUDGED, and.
DKCREEn ,hat Plaintiff Robert Paul Magtulis Cledera's motion to add additional
defendants JEM. M>.: 1121 is DENIED and all pending motions to dismiss.

see Dkt.

Nos. 11, 13, 14, 16, 17, 19, 21, 22. 27, 29, 32, 33, 34, 37, 41, 42, 43, 44, 45, 49, 50, 56,
61, 62, 77, 82, 83, & 101, are GRANTED to the extent that,

because Cledera has

already amended his claims and because allowing further leave to amend would be
futile, given the claims made, the Court DISMISSES this action with prejudice, under
Federal Rule of Civil Procedure 12(b)(6), for Cledera’s failure to state a claim upon
which relief may be granted.
SIGNED this 7th day of August, 2020.

Appendix E
United States District Court
For The Northern District of Texas
Dallas Division

CASE No. 3:19-cv-01997-M-BN

ORDER ACCEPTING FINDINGS, CONCLUSIONS, AND
RECOMMENDATIONS OF THE UNITED STATES MAGISTRATE JUDGE

AUGUST 7, 2020

E

Case 3:19-cv-01997-M-BN Document 122 Filed 08/07/20

Page 1 of 1 PagelD 1773

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ROBERT PAUL MAGTULIS CLEDERA, §
§
Plaintiff,
§
§
V.
§
§
UNITED STATES, ET AL
§
Defendants

No. 3-19-cv-1997-M

i
§

ORDER ACCEPTING FINDINGS, CONCLUSIONS, AND RECOMMEND A tthm
OF THE UNITED STATES MAGISTRATE JUDGE
The United States Magistrate Judge made Findings, Conclusions, and a
Recommendation in this case. Amobjection was filed by Plaintiff. The District Court
reviewed de novo those portions of the proposed Findings, Conclusions, and
Recommendation to which objection was made, and reviewed the remaining proposed
Findings, Conclusions, and Recommendation for plain error. Finding no error, the
Court ACCEPTS the Findings, Conclusions, and Recommendation of the United
States Magistrate Judge.
SO ORDERED this 7th day of August, 2020.

^BARA M, G. LYNN
EF JUDGE
V

Case 3:19-cv-01997-M-BN Document 118 Filed 07/22/20

Page 1 of 10 PagelD 1536

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
' ROBERT PAUL MAGTULIS CLEDERA, §
§
Plaintiff,
§
§
V.
§
§
UNITED STATES, ET AL.,
§
§
Defendants.
§

No. 3:19-cv-1997-M-BN

FINDINGS, CONCLUSIONS, AND RECOMMENDATION OF THE
UNITED STATES MAGISTRATE JUDGE
Plaintiff Robert Paul Magtulis Cledera paid the $400 filing fee to bring this pro
se civil rights action against the United States, federal officials, state officials,
municipal officials, and corporations. Through an amended complaint, Cledera
alleges that “[a]gents acting [on] behalf of the Federal Government [have] engaged in
a conspiracy to harass[], torture and stalk [him] and [his] family.” Dkt. No. 8.
His case has been referred to the undersigned United States magistrate judge
for pretrial management under 28 U.S.C. § 636(b) and a standing order of reference
from Chief Judge Barbara M. G. Lynn.
Multiple defendants have moved to dismiss Cledera’s claims as amended on
various bases, most moving to dismiss under Federal Rule of Civil Procedure 12(b)(6),
because Cledera has failed to state a claim upon which relief may be granted. See
Dkt. Nos. 11, 13, 14, 16, 17, 19, 21, 22, 27, 29, 32, 33, 34, 37, 41, 42, 43, 44, 45, 49, 50,
56, 61, 62, 77, 82, 83, & 101. Cledera has responded and moved to add additional
defendants (but not amend his claims). See Dkt. No. 112. And the defendants have

Case 3:19-cv-01997-M-BN Document 118 Filed 07/22/20

Page 3 of 10 PagelD 1538

more than the mere possibility of misconduct.’” Harold H. Huggins Realty, Inc. v.
FNC, Inc., 634 F.3d 787, 796 (5th Cir. 2011) (quoting Iqbal, 556 U.S. at 679); see also
Inclusive Communities Project, Inc. v. Lincoln Prop. Co., 920 F.3d 890, 899 (5th Cir.
2019) (“Where the well-pleaded facts of a complaint do not permit a court to infer
more than the mere possibility of misconduct, the complaint has alleged — but it has
not ‘show[n]’ — ‘that the pleader is entitled to relief.’” (quoting Iqbal, 556 U.S. at 678
(quoting, in turn, FED. R. ClV. P. 8(a)(2)))).
While, under Federal Rule of Civil Procedure 8(a)(2), a complaint need not
contain detailed factual allegations, a plaintiff must allege more than labels and
conclusions, and, while a court must accept all of a plaintiffs allegations as true, it is
“not bound to accept as true a legal conclusion couched as a factual allegation.” Iqbal,
556 U.S. at 678 (quoting Twombly, 550 U.S. at 555). A threadbare or formulaic
recitation of the elements of a cause of action, supported by mere conclusory
statements, will not suffice. See id. Instead, “to survive a motion to dismiss” under
Twombly and Iqbal, a plaintiff need only “plead facts sufficient to show” that the
claims asserted have “substantive plausibility” by stating “simply, concisely, and
directly events” that the plaintiff contends entitle him or her to relief. Johnson v. City
of Shelby, Miss., 574 U.S. 10, 12 (2014) (per curiam) (citing FED. R. Civ. P. 8(a)(2)-(3),
(d)(1), (e)); see also Inclusive Communities Project, 920 F.2d at 899 (‘“Determining
whether a complaint states a plausible claim for relief is ‘a context-specific task that
requires the reviewing court to draw on its judicial experience and common sense.’”
(quoting Iqbal, 556 U.S. at 679; citing Robbins v. Oklahoma, 519 F.3d 1242, 1248

-3-

Case 3:19-cv-01997-M-BN Document 118 Filed 07/22/20

Page 5 of 10 PagelD 1540

considered to be part of the pleadings, if they are referred to in the plaintiffs
complaint and are central to her claim.” Collins v. Morgan Stanley Dean Witter, 224
F.3d 496, 498-99 (5th Cir. 2000) (quoting Venture Assocs. Corp. v: Zenith Data Sys.
Corp., 987 F.2d 429, 431 (7th Cir. 1993)).
While the United States Court of Appeals for the Fifth Circuit “has not
articulated a test for determining when a document is central to a plaintiffs claims,
the case law suggests that documents are central when they are necessary to
establish an element of one of the plaintiffs claims. Thus, when a plaintiffs claim is
based on the terms of a contract, the documents constituting the contract are central
to the plaintiffs claim.” Kaye v. Lone Star Fund V (U.S.), L.P., 453 B.R. 645, 662 (N.D.
Tex. 2011). “However, if a document referenced in the plaintiffs complaint is merely
evidence of an element of the plaintiffs claim, then the court may not incorporate it
into the complaint.” Id.
And a plaintiff may not amend his allegations through a response to a motion
to dismiss. “[A] claim for relief’ must be made through a pleading, Fed. R. ClV. P. 8(a),
and a response to a motion is not among the “pleadings [that] are allowed” under the
Federal Rules of Civil Procedure, FED. R. Civ. P. 7(a); see, e.g., Klaizner u.
Countrywide Fin., No. 2:14-CV-1543 JCM (PAL), 2015 WL 627927, at *10 (D. Nev.
Feb. 12, 2015) (“All claims for relief must be contained in a pleading. A response to a
motion is not a pleading and it is improper for the court to consider causes of action
not contained in the pleadings.” (citations omitted)).
“Ordinarily, ‘a pro se litigant should be offered an opportunity to amend his

-5-

Case 3:19-cv-01997-M-BN Document 118 Filed 07/22/20

Page 7 of 10 PagelD 1542

to respond.” Id. (quoting Lozano v. Ocwen Fed. Bank, FSB, 489 F.3d 636, 643 (5th
Cir. 2007) (quoting, in turn, Carroll, 470 F.3d at 1177); internal quotation marks and
brackets omitted). These findings, conclusions, and recommendations afford Cledera
notice, and the period for filing objections to them affords him an opportunity to
respond. See, e.g., Starrett, 2018 WL 6069969, at *2 (citations omitted)).
Analysis
Cledera asserts that a vast conspiracy between multiple levels of government,
facilitated by (or, at least, with the assistance of) private corporations, to surveil and
harass him entitles him to $100 million in damages. See, e.g., Dkt. No. 8 at 2 (“I
reported to my supervisor incidents of unknown actors watching me from the moment
I leave my home to work and upon arrival home. There would be a buzz of activity as
soon as I step out of my home. Unmarked vans appearing out of the comer as I leave
my house and as I prepare to drive out of my driveway. Cars would be traveling at
speeds that are clearly unsafe for. a residential community roadway. Cars that are
designed to alarm, annoy and harass by using sounds that were clearly enhanced or
modified to be louder than a regular vehicle would create. I say this as I would hear
these cars from inside my home at ungodly hours of the night into the morning.”); id.
at 3 (“They have also employed aircraft to harass and annoy. Aircraft would pass
overhead as I step out of my home, or vehicle including my back yard. These events
have been caught on my RING and ARLO security cameras as these have the capacity
to record audio. I would be awoken in the middle of the night to these airplanes that
engine noises were not normal and clearly enhanced to annoy and harass. I say this

-7-

Case 3:19-cv-01997-M-BN Document 118 Filed 07/22/20

Page 9 of 10 PagelD 1544

complaint, some of which are set out above, the undersigned finds that Cledera has
set out claims that are fantastic, delusional, irrational, or wholly incredible. The
Court should therefore dismiss his claims with prejudice. Cf. Starrett, 763 F. App’x
at 384 (“Starrett asks us to overturn the district court’s dismissal based on outlandish
claims of near-constant surveillance, theft of intellectual property, and painful
remote communication accomplished using nonexistent technology. These pleaded
facts are facially implausible. Dismissal with prejudice was appropriate, the district
court did not err ....”); Simmons v. Payne, 170 F. App’x 906, 907-08 (5th Cir. 2006)
(per curiam) (“The district court found that Simmons’s assertion of a vast conspiracy
by all levels of the state government and federal government was manifestly frivolous
because the factual allegations were fanciful, irrational, incredible, and delusional.
... Our review of Simmons’s complaint convinces us that the dismissal as frivolous
was not an abuse of discretion.” (citations omitted)); Kolocotronis v. Club of Rome,
109 F.3d 767, 1997 WL 115260, at *1 (5th Cir. Feb. 24, 1997) (per curiam) (“The
district court did not abuse its discretion in adopting a magistrate judge’s finding that
Kolocotronis’ allegations, which describe a government plot to spread the AIDS virus
throughout the world, were ‘fantastic’ and ‘delusional’ and therefore frivolous.”
(citation omitted)).
Recommendation
The Court should deny Plaintiff Robert Paul Magtulis Cledera’s motion to add
additional defendants [Dkt. No. 112] and grant all pending motions to dismiss, see
Dkt. Nos. 11, 13, 14, 16, 17, 19, 21, 22, 27, 29, 32, 33, 34, 37, 41, 42, 43, 44, 45, 49, 50,

-9-

Additional material
from this filing is
available in the
Clerk's Office.

